C

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief for
Amici Curiae National Religious Campaign Against
Torture; Church of the Brethren, Office of
Peace building and Policy; General Synod of the United
Church of Christ; National Advocacy Center of the
Sisters of the Good Shepherd; Congregation of Our
Lady of Charity of the Good Shepherd, U.S. Provinces;
Alliance of Baptists; Friends Committee on National
Legislation; Mary knoll Office for Global Concerns; and
Reconstructionist Rabbinical Association in Support of
Respondents and Affirmance in 20-827, United States
of America v. Zayn Al-Abidin Muhammad Husayn,
A.K.A. Abu Zubaydah, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 20th day of August, 2021:
Elizabeth Prelogar
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

, 8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square

' 1300 I Street, NW, Suite 400E
Washington, DC 20005

David Franklin Klein
Pillsbury Winthrop Shaw Pittman LLP
1200 17th Street NW
Washington, DC 20036
(202) 663-8000
david.klein@pillsburylaw.com
Counsel for Respondents
Zayn al-Abidin Muhammad Husayn, et al.
Christopher W. Tompkins
Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101
(206) 292-9988
ctompkins@bpmlaw.com
Counsel for Respondents
James Elmer Mitchell and John Jessen
Michael K. Robertson
Jonathan N. Olivito
David J. Butler
Counsel of Record
Taft Stettinius & Hollister LLP
65 E. State Street, Suite 1000
Columbus, Ohio 43206
(614) 334-6167
dbutler@taftlaw.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~guf( q9 I Cf}d I

JA-- 41, . ~

Notary Public
[seal]

JOH:,J

r

GALU.C,HER

